      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                        Washington, D.C. 20201




June 29, 2010

TO:             Marilyn Tavenner
                Acting Administrator and Chief Operating Officer
                Centers for Medicare & Medicaid Services


FROM:           /Daniel R. Levinson/
                Inspector General


SUBJECT:        Review of Inpatient Rehabilitation Facilities’ Compliance With Medicare’s
                Transfer Regulation During Fiscal Years 2004 Through 2007 (A-04-09-00059)


The attached final report provides the results of our review of inpatient rehabilitation
facilities’ compliance with Medicare’s transfer regulation during fiscal years 2004 through
2007.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this
report will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate,
within 60 days. If you have any questions or comments about this report, please do not
hesitate to call me, or your staff may contact Robert A. Vito, Acting Assistant Inspector
General for the Centers for Medicare & Medicaid Audits, at (410) 786-7104 or through email
at Robert.Vito@oig.hhs.gov. Please refer to report number A-04-09-00059 in all
correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




    REVIEW OF INPATIENT
 REHABILITATION FACILITIES’
COMPLIANCE WITH MEDICARE’S
TRANSFER REGULATION DURING
     FISCAL YEARS 2004
       THROUGH 2007




                      Daniel R. Levinson
                       Inspector General

                          June 2010
                        A-04-09-00059
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

An inpatient rehabilitation facility (IRF) is a hospital or a subunit of a hospital whose primary
purpose is to provide intensive rehabilitation services to its inpatient population. Under the
Medicare prospective payment system for IRFs, the Centers for Medicare & Medicaid Services
(CMS) classifies beneficiaries into 1 of 100 case-mix groups depending on their clinical
characteristics and expected resource needs. CMS assigns each case-mix group a prospective
payment rate and uses the rate to calculate the prospective payment. Fiscal intermediaries under
contract with CMS process and pay Medicare claims submitted by IRFs.

Pursuant to Medicare’s transfer regulation, Medicare pays the full prospective payment to an IRF
that discharges a beneficiary to home. In contrast, Medicare pays a lesser amount, based on a per
diem rate and the number of days that the beneficiary spent in the IRF, for a transfer case. A
transfer case is defined as one in which (1) the beneficiary’s IRF stay is shorter than the average
stay for nontransfer cases in the case-mix group and (2) the beneficiary is transferred to another
IRF; a short-term, acute-care prospective payment hospital; a long-term-care hospital; or a
nursing home that qualifies for Medicare or Medicaid payments. Whether Medicare pays for a
discharge to home or a transfer depends on the patient status code indicated on the IRF’s claim.

Previous Office of Inspector General audits identified overpayments to transferring IRFs that did
not comply with Medicare’s transfer regulation. In response to our recommendations, CMS
implemented an edit in the Common Working File (CWF) on April 1, 2007, to identify transfers
improperly coded as discharges.

This audit covered 5,703 IRF claims totaling $102.7 million that were paid during fiscal years
2004 through 2007. These claims had shorter than average stays, were coded as discharges to
home or discharges to home with home health services, and pertained to beneficiaries who were
admitted to another facility on the same day.

OBJECTIVES

Our objectives were to determine whether (1) IRFs coded selected claims in compliance with
Medicare’s transfer regulation during fiscal years 2004 through 2007 and (2) the new CWF edit
detected miscoded claims and fiscal intermediaries took appropriate action to adjust claims that
the edit identified.

SUMMARY OF FINDINGS

IRFs did not always code claims in compliance with Medicare’s transfer regulation. Of the 220
claims in our sample, 7 claims paid after the CWF edit was implemented were not subject to the
transfer regulation. The remaining 213 claims, which pertained to transfers to facilities that were
subject to the transfer regulation, were improperly coded as discharges. These 213 claims
resulted in overpayments of $1,212,745. Based on our sample results, we estimated that fiscal
intermediaries overpaid $34,051,807 to IRFs for the 4-year period that ended September 30,



                                                 i
2007. IRFs generally attributed the miscoded claims to clerical errors and a lack of knowledge
of where beneficiaries went after leaving their facilities.

Although the new CWF edit detected miscoded claims, fiscal intermediaries did not take
appropriate action to adjust the claims and prevent incorrect payments. Of the 20 sampled
claims that were paid after the CWF edit was implemented, 7 were not subject to Medicare’s
transfer regulation and 13 were incorrectly coded as discharges rather than transfers. The CWF
edit detected all 13 incorrectly coded claims. However, fiscal intermediaries did not take action
on the CWF edit alerts to prevent incorrect payments for these claims.

RECOMMENDATIONS

We recommend that CMS:

   •   recover the $1,212,745 in overpayments identified in our sample,

   •   instruct fiscal intermediaries to review the remaining claims in our sampling frame and
       identify and recover additional overpayments estimated at $32,839,062,

   •   instruct fiscal intermediaries to take appropriate action in response to future CWF edit
       alerts,

   •   follow up with fiscal intermediaries to ensure that they took appropriate action in
       response to CWF edit alerts, and

   •   consider reviewing claims paid after our audit period to identify any improperly coded
       transfers.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS agreed with our recommendations and described
the corrective actions that it planned to take. CMS’s comments are included in their entirety as
Appendix C.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION ............................................................................................................. 1

          BACKGROUND ..................................................................................................... 1
              Inpatient Rehabilitation Facilities................................................................ 1
              Medicare’s Transfer Regulation .................................................................. 1
              Pricing Inpatient Rehabilitation Facility Claims ......................................... 2
              Prior Office of Inspector General Reports and Centers for
                Medicare & Medicaid Services Corrective Actions ................................. 2

          OBJECTIVES, SCOPE, AND METHODOLOGY ................................................ 2
               Objectives .................................................................................................... 2
               Scope ........................................................................................................... 3
               Methodology................................................................................................ 3

FINDINGS AND RECOMMENDATIONS .................................................................... 4

          FEDERAL REQUIREMENTS FOR CODING TRANSFER CLAIMS ................ 5

          IMPROPER CODING OF TRANSFER CLAIMS ................................................. 5

          PAYMENT CONTROLS ........................................................................................ 5

          RECOMMENDATIONS ........................................................................................ 6

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ............ 7

APPENDIXES

          A: SAMPLING METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

Inpatient Rehabilitation Facilities

An inpatient rehabilitation facility (IRF) is a hospital or a subunit of a hospital whose primary
purpose is to provide intensive rehabilitation services to its inpatient population.

Section 1886(j) of the Social Security Act (the Act) established a Medicare prospective payment
system for IRFs. The Centers for Medicare & Medicaid Services (CMS), which administers the
Medicare program, began implementing the prospective payment system for cost-reporting
periods beginning on or after January 1, 2002. Under the system, CMS classifies beneficiaries
into 1 of 100 case-mix groups depending on their clinical characteristics and expected resource
needs. CMS assigns each case-mix group a prospective payment rate and uses the rate to
calculate the prospective payment.

During our audit period (fiscal years (FY) 2004 through 2007), CMS contracted with fiscal
intermediaries to process and pay Medicare claims submitted by institutional providers,
including IRFs. Effective October 1, 2005, the Medicare Prescription Drug, Improvement, and
Modernization Act of 2003, P.L. No. 108-173, amended certain sections of the Act to require
that Medicare administrative contractors replace fiscal intermediaries by October 2011.

Medicare’s Transfer Regulation

Medicare’s transfer regulation distinguishes between discharges and transfers to certain types of
facilities. Medicare pays the full prospective payment, based on the case-mix group, to an IRF
that discharges a beneficiary to home. In contrast, Medicare pays a lesser amount, based on a per
diem rate and the number of days that the beneficiary spent in the IRF, for a transfer case
(42 CFR § 412.624(f)). A transfer case is defined as one in which:

   •   the beneficiary’s IRF stay is shorter than the average stay for nontransfer cases in the
       case-mix group into which the patient falls (42 CFR § 412.624(f)) and

   •   the beneficiary is transferred to another IRF; a short-term, acute-care prospective
       payment hospital; a long-term-care hospital; or a nursing home that qualifies for
       Medicare or Medicaid payments (42 CFR § 412.624(f); 42 CFR § 412.602).

Whether Medicare pays for a discharge to home or a transfer depends on the patient status code
indicated on the IRF’s claim. IRFs use code 01 to indicate a discharge to home and code 06 to
indicate a discharge to home with home health services (Medicare Claims Processing Manual
(the Manual), ch. 25, § 75.2). CMS specifies that the following patient status codes are subject
to the transfer regulation (the Manual, ch. 3, § 140.3; the Manual, ch. 25, § 75.2):

   •   02—a short-term, acute-care inpatient hospital;




                                                 1
       •   03—a skilled nursing facility;

       •   61—a hospital-based, Medicare-approved swing bed 1 within the IRF;

       •   62—another IRF;

       •   63—a long-term-care hospital; and

       •   64—a Medicaid-only nursing facility.

Pricing Inpatient Rehabilitation Facility Claims

To price IRF claims, CMS developed the IRF Pricer program. This program uses information
specific to each IRF and information from each claim, including the patient status code, to
calculate the price upon which to base the prospective payment.

Claims must indicate the proper patient status codes because the Pricer program uses those codes
in determining whether the claims will be paid as discharges or transfers. The Pricer program
automatically calculates payments for claims with codes 02, 03, 61, 62, 63, or 64 at the per diem
rate for transfers.

Prior Office of Inspector General Reports and Centers for
Medicare & Medicaid Services Corrective Actions

Previous Office of Inspector General audits identified Medicare overpayments that occurred
because IRFs did not comply with Medicare’s transfer regulation. 2 In those reports, we
recommended that CMS implement edits in the Common Working File (CWF) that match
beneficiary discharge dates with admission dates to other providers to identify claims potentially
miscoded as discharges rather than transfers. In response to our recommendations, CMS
implemented an edit on April 1, 2007 (CMS, Transmittal 1099, Change Request 5354,
Attachment – One-Time Notification (Nov. 2, 2006)).

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether (1) IRFs coded selected claims in compliance with
Medicare’s transfer regulation during FYs 2004 through 2007 and (2) the new CWF edit detected
miscoded claims and fiscal intermediaries took appropriate action to adjust claims that the edit
identified.


1
    A swing bed is a hospital bed used to provide both long-term care and acute care.
2
 Our previous reports addressed IRF claims coded as discharged to home (report number A-04-04-00008, issued
September 11, 2006) and as discharged to home with home health services (report number A-04-04-00013, issued
November 2, 2006).


                                                            2
Scope

Our review covered 5,703 IRF claims totaling $102,719,261 that were paid from FY 2004
through FY 2007. These claims had shorter than average stays, were coded as discharges to
home or discharges to home with home health services, and pertained to beneficiaries who were
admitted to another facility on the same day.

We did not review the overall internal control structure of fiscal intermediaries or CMS. We
limited our internal control review to obtaining a general understanding of the IRF prospective
payment system as it pertained to pricing and paying claims. We accomplished our objectives
through substantive testing. We performed fieldwork from November 2008 through August
2009.

Methodology

To accomplish our objectives, we performed the following procedures:

      •    We reviewed Federal laws and regulations and CMS guidance concerning IRF transfers.

      •    We interviewed CMS and fiscal intermediary officials to gain an understanding of how
           they processed IRF claims and how the CWF edit operated.

      •    We created a file of nationwide IRF paid claim data for FYs 2004 through 2007 by
           extracting claims from CMS’s calendar years 2003 through 2007 files. The file we
           created represented $25 billion in payments for 1,772,771 claims.

      •    We refined the nationwide file by excluding certain claims, such as claims with lengths
           of stay equal to or greater than the average length of stay for the case-mix group, outlier
           claims, claims for deceased beneficiaries, claims not primarily paid by Medicare, and
           claims paid to Maryland providers. 3

      •    From the refined nationwide file, we created a subset file consisting of all claims with
           status codes “01, discharge to home” and “06, discharge to home with home health
           services.”

      •    We obtained from CMS files of FYs 2004 through 2007 nationwide Medicare paid
           claims from the types of facilities subject to Medicare’s transfer regulation.

      •    We matched the subset file of IRF claims against the files of claims from the types of
           facilities subject to Medicare’s transfer regulation. Through this process, we identified
           6,702 claims for IRF discharges in which the beneficiary was admitted on the same day
           to a facility subject to Medicare’s transfer regulation, and we created a list of claims
           potentially miscoded as discharged to home or discharged to home with home health
           services. These claims constituted our refined population.

3
    Maryland is exempt from the prospective payment system.


                                                        3
   •   We excluded 505 claims from the refined population because they lacked certain facility-
       specific information that would enable us to reprice the claims. We also excluded 494
       claims that were canceled or superseded by corrected claims. Removing these 999 claims
       established our sampling frame of 5,703 claims totaling $102,719,261 (5,683 claims paid
       before the CWF edit was implemented and 20 claims paid after the CWF edit was
       implemented).

   •   We selected a stratified random sample of 220 claims: 200 claims from the 5,683 claims
       that were paid before the CWF edit was implemented and all 20 claims that were paid
       after the CWF edit was implemented.

   •   We analyzed the CWF claim histories for each of the 220 sampled claims to identify the
       specific IRF and to determine whether the beneficiary was readmitted to the same IRF
       and whether the CWF initiated an edit alert for the 20 claims that were paid after the
       CWF edit was implemented.

   •   We contacted the 189 IRFs that submitted the 220 sampled claims to determine whether
       the information on the claims was correct and, if not, why the claims were incorrect and
       whether the IRFs agreed that the claims should have been coded as transfers.

   •   We contacted the 10 fiscal intermediaries that paid the 20 claims after the CWF edit was
       implemented to determine why the fiscal intermediaries made the payments after
       receiving CWF edit alerts.

   •   We repriced each improperly paid claim in our sample to determine the transfer payment
       amount, compared the repriced payment with the actual payment, and determined the
       value of the overpayment. Based on the overpayments in our sample, we estimated the
       dollar value of overpayments to IRFs nationwide.

See Appendix A for details on our sampling methodology and Appendix B for the sample results
and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

IRFs did not always code claims in compliance with Medicare’s transfer regulation. Of the 220
claims in our sample, 7 claims paid after the CWF edit was implemented were not subject to the
transfer regulation. The remaining 213 claims, which pertained to transfers to facilities that were
subject to the transfer regulation, were improperly coded as discharges. These 213 claims
resulted in overpayments of $1,212,745. Based on our sample results, we estimated that fiscal
intermediaries overpaid $34,051,807 to IRFs for the 4-year period that ended September 30,


                                                 4
2007. IRFs generally attributed the miscoded claims to clerical errors and a lack of knowledge
of where beneficiaries went after leaving their facilities.

Although the new CWF edit detected miscoded claims, fiscal intermediaries did not take
appropriate action to adjust the claims and prevent incorrect payments. Of the 20 sampled
claims that were paid after the CWF edit was implemented, 7 claims were not subject to
Medicare’s transfer regulation and 13 were incorrectly coded as discharges rather than transfers.
The CWF edit detected all 13 incorrectly coded claims. However, fiscal intermediaries did not
take action on the CWF edit alerts to prevent incorrect payments for these claims.

FEDERAL REQUIREMENTS FOR CODING TRANSFER CLAIMS

Section 1886(j)(1)(E) of the Act authorizes CMS to adjust a prospective payment to account for
the early transfer of a beneficiary from an IRF to another site of care. Implementing regulations
(42 CFR § 412.624(f)(1)) require an adjustment to an IRF’s prospective payment if the
beneficiary’s stay in the IRF is shorter than the average stay for nontransfer cases in the given
case-mix group and if the beneficiary is transferred from the IRF to another facility specified in
42 CFR § 412.602. The specified facilities include another IRF; a short-term, acute-care
prospective payment hospital; a long-term-care hospital; or a nursing home that qualifies for
Medicare or Medicaid payments.

Medicare pays the full prospective payment to an IRF that discharges a beneficiary to home. In
contrast, pursuant to 42 CFR § 412.624(f)(2), Medicare pays for a transfer case on a per diem
basis. CMS calculates the per diem payment rate by dividing the full case-mix-group payment
rate by the average length of stay for nontransfer cases in the case-mix group into which the
patient falls. CMS then multiplies the per diem rate by the number of days that the beneficiary
stayed in the IRF before being transferred. CMS makes an additional half-day payment for the
first day.

IMPROPER CODING OF TRANSFER CLAIMS

Of the 220 claims in our sample, 213 pertained to transfers to facilities specified in Medicare’s
transfer regulation. Contrary to Federal requirements, IRFs coded these claims as discharges
rather than transfers. As a result, the IRFs received overpayments of $1,212,745. Based on our
sample results, we estimated that fiscal intermediaries overpaid $34,051,807 to IRFs for the
4-year period that ended September 30, 2007. IRFs generally attributed the miscoded claims to
clerical errors and a lack of knowledge of where beneficiaries went after leaving their facilities.

PAYMENT CONTROLS

For the sampled claims that were paid before April 1, 2007, CMS lacked adequate CWF controls
to detect miscoded claims and prevent incorrect payments. CMS responded to recommendations
in our previous reports by implementing an edit in the CWF on April 1, 2007. This edit matches
the dates of beneficiary discharges from IRFs with admission dates to other providers to identify
claims potentially miscoded as discharges rather than transfers. When the edit identifies a




                                                 5
potentially miscoded claim, the CWF alerts the fiscal intermediary to verify the accuracy of the
patient status code.

The new CWF edit detected the improperly coded claims in our sample and significantly reduced
the number of improperly coded claims paid after April 1, 2007. As shown in Appendix A, the
number of claims in our sampling frame with patient status code 01 or 06 that appeared to be
transfers decreased from 1,899 in FY 2004 to 655 in FY 2007 (635 before the edit and 20 after
the edit). Of the 20 sampled claims paid after the CWF edit was implemented, 7 claims that
were not subject to Medicare’s transfer regulation appropriately bypassed the CWF edit. Six of
the seven claims bypassed the CWF edit because they involved subsequent admissions to critical
access hospitals, and one claim involved a subsequent admission that was adjusted and not paid
by the fiscal intermediary because the services were not medically necessary. 4 The remaining 13
claims, which were subject to Medicare’s transfer regulation, were identified by the CWF edit.

Although the CWF edit detected the 13 incorrectly coded claims, fiscal intermediaries did not
take appropriate action in response to the edit alerts generated by the CWF. The fiscal
intermediaries informed us that they did not always receive these alerts and did not know that
these claims required adjustment. Generally, the fiscal intermediaries attributed this lack of
knowledge to the transitioning of claim processing responsibilities from fiscal intermediaries to
Medicare administrative contractors.

RECOMMENDATIONS

We recommend that CMS:

    •   recover the $1,212,745 in overpayments identified in our sample,

    •   instruct fiscal intermediaries to review the remaining claims in our sampling frame and
        identify and recover additional overpayments estimated at $32,839,062,

    •   instruct fiscal intermediaries to take appropriate action in response to future CWF edit
        alerts,

    •   follow up with fiscal intermediaries to ensure that they took appropriate action in
        response to CWF edit alerts, and

    •   consider reviewing claims paid after our audit period to identify any improperly coded
        transfers.




4
 Claims such as this one, which was deemed to be medically unnecessary and coded as a “no pay” claim,
appropriately bypass the edit.


                                                       6
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS agreed with our recommendations and described
the corrective actions that it planned to take. CMS also requested that we furnish the contractor-
specific data necessary to recover the overpayments. We provided the data to CMS on May 13,
2010.

CMS’s comments are included in their entirety as Appendix C.




                                                7
APPENDIXES
                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of nationwide inpatient rehabilitation facility (IRF) claims coded as
discharged to home (01) or discharged to home with home health services (06) that appeared to
be transfers and were paid during fiscal years (FY) 2004 through 2007 (October 1, 2003, through
September 30, 2007).

SAMPLING FRAME

The sampling frame was a file containing 5,703 IRF claims totaling $102,719,261 for
FYs 2004 through 2007. We divided the sampling frame into five strata based on the FY and the
April 1, 2007, effective date of the Common Working File edit:

                                                         Number of            Dollar
       Stratum                  Period
                                                          Claims             Amount
           1       Oct. 1, 2003–Sept. 30, 2004              1,899           $32,108,364
           2       Oct. 1, 2004–Sept. 30, 2005              1,685            30,047,987
           3       Oct. 1, 2005–Sept. 30, 2006              1,464            27,845,928
           4       Oct. 1, 2006–Mar. 31, 2007                 635            12,361,336
           5       Apr. 1–Sept. 30, 2007                       20               355,646
                   Total                                    5,703          $102,719,261

SAMPLE UNIT

The sample unit was a paid claim.

SAMPLE DESIGN

We used a stratified random sample.

SAMPLE SIZE

We selected 220 claims: 50 claims each from strata 1 through 4 and all 20 claims in stratum 5.

SOURCE OF THE RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services (OIG/OAS), statistical
software to generate the random numbers.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the value of overpayments in the sampling
frame.
                               APPENDIX B: SAMPLE RESULTS AND ESTIMATES


                                                       Sample Results
                                                                                                Number of
                                                                                                Improperly       Value of
                                           Frame        Value of       Sample      Value of       Coded        Overpayments
Stratum               Period                Size         Frame          Size       Sample        Claims in      in Sample 1
                                                                                                  Sample

    1      Oct. 1, 2003–Sept. 30, 2004     1,899       $32,108,364        50       $834,130          50             $306,214
    2      Oct. 1, 2004–Sept. 30, 2005     1,685        30,047,987        50        832,553          50              323,944
    3      Oct. 1, 2005–Sept. 30, 2006     1,464        27,845,928        50        908,722          50              287,473
    4      Oct. 1, 2006–Mar. 31, 2007        635        12,361,336        50        904,116          50              238,682
    5      Apr. 1–Sept. 30, 2007              20           355,646        20        355,646          13               56,432

                      Total                5,703      $102,719,261       220      $3,835,167        213            $1,212,745




                                         Estimated Value of Overpayments
                                                 for FYs 2004–2007
                                Limits Calculated for a 90-Percent Confidence Interval

                                         Point estimate
                                           Stratum 1                      $11,629,989
                                           Stratum 2                       10,916,927
                                           Stratum 3                        8,417,199
                                           Stratum 4                        3,031,260
                                           Stratum 5                           56,432
                                              Total                       $34,051,807

                                         Lower limit                      $30,376,892
                                         Upper limit                       37,726,721




1
  We calculated each overpayment by subtracting the payment that should have been made for a transfer from the payment made for
a discharge.
                                                                                                           Page I of3

       APPENDIX C: CENTERS FOR MEDICARE & MEDICAID SERVICES 

                            COMMENTS 

    /<#_,
(      ~        DEPARTMENT OF HEALTH & HUMAN SERVICES
    ,Sz\... 

                                                                                         Ctonters lor Medicare & Mlldicllid ServicH


                                                                                         AdministTiltor
                                                                                         W!lINrtgIon, DC 20201




                                                                                                 o
            DATE:             MAY 1 3 <llIO                                                                   .,,   '"
                                                                                                                    ~

                                                                                                      "
                                                                                                      ~             ~
            TO:            Daniel R. Levinson
                                                                                                      .",.'
                                                                                                       ~




            FROM :
                         ,J:iU)lll
                              ~tO~~t~   enner
                                                                                                       r                 r1
                                                                                                                         l
                           Acting A ·    nistrator and Chief Operating Officer

            SUBJEcr: 	 Office of Inspector General (DIG) Draft Report: "Review oflnpD.tient
                       Rehabilitation Facilities' Compliance With Medicare's Transfer Regulation
                       During Fiscal Years 2004 Through 2007" (A-04-09-00059)

            Thank you for the opportunity 10 review and comment on the Offi ce of Inspector General 's draft
            report, "Review of Inpatient Rehabilitation Facilities' Compliance With Medicare's Transfer
            Regulation During Fiscal Years 2004 Through 2007." The Centers for Medicare & Medicaid
            Services (eMS) appreciatcs the time and resources the DIG has invested 10 detennine the extent
            to which Inpatient Rehabilitation Facilities (IRFs) coded claims in compliance with Medicare's
            transfer reb'Ulation and the extent to which fiscal intermediaries took appropriate action to adjust
            the claims the new Common Working File (CWF) edit detected.

            Medicare pays the full prospective payment to an IRF that discharges a beneficiary to their
            home. Medicare pays a lesser amount if the beneficiary is considered a transfer casco Previous
            GIG audits identified this problem and in response, e MS implemented an edit in the CWFon
            April 1,2007 to identify transfers improperly coded as discharges.

            The eMS will work to improve our OVL"TSight of lRF compliance with Medicare's transfer
            regulation. The OIG made the following recommendations.

            OIG Recommendation I

            Recover the S I,212,745 in overpayments identified in our sample.

            eMS Response

            The CMS concurs. eMS agrees thaI the $1,2 12,745 in overpayments should be recovered
            andCMS plans to recover the overpayments identified. These actions arc consistent with the
            agency's policies and procedures.

            The eMS requests that the GIG furnish for each overpayment or potential overpayment the data
            necessary (Medicare contractor numbers, provider numbers, claims information including the
                                                                                          Page 2 00



Page 2 - Daniel R. Levinson


paid date, H1C numbers, etc.) to initiate and complete recovery action. In addition, eMS
requests that Medicare contractor specific data be written to separate CD·ROMs o r separate
hardcopy worksheets in order to better facilitate the trans fer of information to the appropriate
contractors.

OIG Recommendation 2

Instruct fiscal intcnnediaries to review the remaining claims in our sampling frame and identify
and recover additional overpayments estimated at $32,839,062.

eMS Response

The eMS concurs. Upun receipt of the fi les from the OlG, eMS wiU share the DIG report and
any additional claims infonnation with the appropriate Medicare contractors and will instruct the
Medicare contractors to consider the issues identified in this report and the additional claim
infonnation when prioritizing their Medicare review strategies or other interventions. The eMS
requests that the OIG furnish the data necessary (provider numbers, claims information including
the paid date, HIC #s, Contractor Medicare lD number, Contractor Name, Provider Specialty if
applicable, Place ofServiee Code if applicable, Provider State, and Number of Beneficiaries,
etc.) to analyze their data. In addition, CMS ruso requests all Medicare contract specific data be
written to separate CD-ROMs or separate hard copy worksheets in order to better facilitate the
transfer of infonnation to the appropriate contractors.

GIG Res;o mmendation 3

Instruct fiscal intermediaries to take appropriate action in response to future CWF edit alerts.

eMS ResPonse

The eMS concurs. CMS will provide additional contractor education and instruct the fiscal
intermediaries (FIs) and Medicare Administrative Contractors (MACs) in the recurring annual
updatc Change Request for the FY 201 1 IRF PPS (October I, 20 10), to cancel claims (i.e.,
recover payment) based on the CWF unsolicited response (Le., edit alert referred to in the
report).

OIG Recommendation 4

Follow up with fisca1 intermediaries to ensure that they took appropriate action in response to
CWF edit alerts.

eMS R espOnse

The eMS concurs with the OIG's recommendation. CMS will follow-up with FIs and MACs to
ensure appropriate action in respo nse to CWF edit alerts by perfonning contractor management
on-sile visits and utilizing our QUldity Assurance Surveillance Plan reviews for MACs as
needed.
                                                                                            Page 3 00



Page 3 - Daniel R. Levinso n



OIG Recommendation 5
                                                                                erly coded transfers.
Consider reviewi ng claims prud after the audit period to identify any improp

e MS Respon se
                                                                            re claims on a post
The eMS concurs. The Recovery Audit Contractors (RACs) review Medica
                                                                         yments.   While e M S
payment basis and are tasked with identifying overpayments and underpa
                                                                   tion with them  and encourage
does not mandate areas for RAe review, we will share lhis infonna
them to consider these findings as they decide what claims to review.
                                                                         looks forward to
The eMS appreciates the OIG's efforts and insight on this report. eMS
                                                              fraud and abuse in the Medicare
continu ally working with the OIG on issues related to waste,
program .
